supreme Court, U.S.
FILED

JAN 0 6 2020
No.

<30-77

OFFICE OF THE Cl FRK

IN THE
SUPREME COURT OF THE UNITED STATES

STEVEN IVEY - PETIONER
VS.
RICHARD CORCORAN,
FLORIDA DEPARTMENT OF EDUCATION, et.al.

- RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI TO
FLORIDA SUPREME COURT
PETITION FOR WRIT OF CERTIORARI
STEVEN IVEY
PO BOX 238353
COCOA, FL, 32923
407 - 457- 2928

at

Received
JUL 2 2 2020
1

QUESTIONS(S) PRESENTED
Question 1:
Is the present Florida education system of 'separate but equal' county
education districts with no central state FL DOE oversight a form of
segregation making it a violation of'Brown v. Board of Education', (US S. Ct.
1954), because with 'Brown' 'Plessy v. Ferguson' was determined to be
unconstitutional in education systems?
Question 2:
Is it unconstitutional in a complaint of discrimination within a federally
funded work training education program for the Florida Department of
Education,(FL DOE), to use Florida Constitution Art. IX 4(b) and Florida
Statutes 1001.42 (4)(h), 1001.33, 1001.42(5)(a), & 1012.22(1) for dismissal in
Florida Second Circuit Court citing that these state authorities jusitfy that
the FL DOE does not have jurisdiction over the claims even though a plaintiff
filed the complaint and used support citing the US Civil Rights Act/Codes of
1964, (Title VI & VII), 42 U.S.C.2000 for protection, processing and relief?
Question 3:
Is it proper due process as per the due process clause of the Fift Amendment
of the US Constitution for FL DOE through Florida Second Circuit Court to
use Florida Constitution Art. IX 4(b) and Florida Statutes 1001.42 (4)(h),
1001.33, 1001.42(5)(a), & 1012.22(1) in place of the US Civil Rights
Act/Codes of 1964, Title VII, 42 U.S.C.2000 for decisions in a case of US Civil
Rights violations?
Question 4:
Considering Questions 2 & 3, a resulting question is do the Florida state
authorities of Florida Constitution Art. IX 4(b), and Florida Statutes
1001.42 (4)(h), 1001.33, 1001.42(5)(a), & 1012.22(1) provide equivalent and
sufficient substitutions for the federal authorities of the US Civil Rights Act/
Codes of 1964, Title VI & VII, 42 U.S.C.2000 and the Federal Rules of Civil
Proceture when both are used in Florida court decisions of individual Civil
Rights and the federal authorities for the required adherence to distribution,
protection, and processing of federal education funds?

1

LIST OF PARTIES
(l/lll parties appear in the caption of the case on the cover page.

( ) All parties do not appear in the caption of the case on the cover page.
A list of all parties to the proceedingsn in the court whose judgment
is the subject of this petition is as follows:

RELATED CASES
None

1

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

28

CONCLUSION

40
INDEX TO APPENDICES

APPENDIX A- Florida First District Court of Appeal Decision

51

APPENDIX B- Second Circuit Court of Florida Decision

53

APPENDIX C- Florida Supreme Court Affirmed ..........

55

APPENDIX D- NOV 11, 2017 Plaintiffs Notice

56

APPENDIX E- Defendant's Motion to Dismiss

57

APPENDIX F- Plaintiffs Reply to Motion to Dismiss___

61

APPENDIX G- FEB 12, 2018 Plaintiffs Letter

70

APPENDIX H- Defendant-Lambert Interrogatories

72

APPENDIX I- Deposition of Oakes

75

APPENDIX J- Deposition of Price

80

APPENDIX K- Florida DMV Letter

83

APPENDIX L- Appellee, Stewart, Answwer Brief

84

1

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
Brown v. Board of Education, (1954, US S. Ct.)

13

Ivey v. Robert Kynoeh, FL Dept. OF Motor Vehicles,
(CA No. 2010-CA-010751-0, FL Ninth Circuit)...

6

Plessy v. Ferguson, (163 US 537) (1896 US S. Ct.)

33

STATUTES AND RULES
US Constitution- Fifth Amendment

17,18

US Civil Rights Act/Codes of 1964- Title VI & VII, 42 U.S.C. 2000

11, 15

Federal R.C.P.....

30

12

Florida Constitution Art. IX 4(b)
Florida Statutes 1001.42 (4)(h)...... .

14

1001.10(4)

26

1001.30

24

1001.33

14
14
14

1001.42(5)(a)...
and 1012.22(1)
Florida Statute 706

22

Florida R.C.P. - (Fla. R.Civ. P. 1.110(3)}

20

OTHER
Rules & Regulations of the US Dept, of Education

8

"A History of the Supreme Court", Bernard Schwartz,
PP. 286 - 310, ’Brown v. Board of Education’...........

32

1

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
;or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix.C*.__ to the petition and is
[ ] reported at
;or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
The opinion of the
C-fTLClA/Y C6U&T &F
court
appears at Appendix _& to the petition and is
[ ] reported at
;or,
[ ] has been designated for publication but is not yet reported; or,
yfm unpublished.
l.

to

to

JURISDICTION

[ ] For cases from federal courts:
Hie date on which the United States Court of Appeals decided my case
was .__________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:------------------------------ , and a copy of the
order denying rehearing appears at Appendix
[ 3 An extension of time to file the petition for a writ of certiorari was granted
to and including_________________ (date) on____________
(date) in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
/

^For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
and a copy of the order denying rehearing
appears at Appendix
[ 3 An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
US Civil Rights Act/Codes of 1964- Title VI & VII, 42 U.S.C. 2000
US Constitution- Fifth Amendment
Federal R.C.P.
Florida Constitution Art. IX 4(b)
FL Statutes: 1001.42 (4)(h), 1001.10(4), 1001.30, 1001.33,1001.42(5)(a),
and 1012.22(1)
Florida Statute 706
Fla. R.Civ. P. 1.110(3)
STATEMENT OF THE CASE
I. Introduction
This 'Statement of the Case' is the amended initial brief with references
to the appendix as complying with the October 23, 2018 'Court Order' of
Florida First District Court of Appeal to cite facts in the original initial brief
There is the inclusion of four exhibits, APP. H, I, J, & K that support the
stipulation of 'common knowledge' as explained below, thus, their inclusion
does not specifically reference anything new as per the initial brief. (To Note
the references to the respondents are Stewart/FL DOE or Corcoran/FL DOE.
The below paragraph numbers start where the initial brief number ended.)
A. Background
(1) Origin of Complaint
16. During the recent reccession, 2008-2013, Ivey became unemployed to
3

which he applied for unemployment compensation. During this time there
was a US Congressional enacted federal work training program that was to
be done in place of taking unemployment compensation. This program
sought to teach people to be trained for needed job openings rather than
collect un-employment. The program was two-fold, it sought to 'teach a
person to fish rather than give them a fish to eat' and the cost of the training
program was less than the cost of lengthy unemployment compensation.
17. The directives of the US Congress was that the training programs had to
meet the rules and regulations of the US Dept, of Education, US DOE, then
by the state Dept, of Education for where the funds would eventually be used.
The initial prtocessing was with the Florida Agency for Workforce
Innovation, AWI, REC P. 7. Which did the required checking for completed
forms as per the education facility that would receive the funds. Then the
participant would choose the job training course from the approved list at
which approved education facility. Ivey chose the least expensive and least
completion time for training which was to receive a commercial driving
license, CDL, at a cost of $ 2100. Ivey applied to Mid Florida Tech, MFT, in
Orlando, Florida. The program was for 8 weeks and started February 2009,
App. I, P 76, L-21 to P. 77, L-19.
18..

Just after the first week, the instructors, Ted Price and Darren Oaks

had a meeting with Ivey to tell him he had to retake the course and repay all
over becuase they said Ivey would not pass the course. Oaks remarked that
4

he did not know how that would affect AWI for Ivey having received the fees
for the course through AWI. At this point in the course there were no test or
evaluations given. Ivey thought that this was a means of extorting money
from him. Ivey refused to drop the course and reported the incident to Erma
Rolbledo/AWI.
19.

During following weeks Oaks failed to provide Ivey with the drive

time training that all other students received. Ivey continued in the course,
until there was testing starting in the fifth week. Price gave gave the DMV
testing for certification of the CDL. For two other Hispanic student Price
gave them repeated testings of parts of the DMV CDL certification. However,
Price did not do the same for Ivey when Price failed Ivey in parts of the
certification. When questioned as to why Price did not give Ivey mutiple
times to pass, Price failed to respond. This led to the complaint through MFT
to a civil action. As such the purpose of the AWI fedrally funded program
was underminded. Monetarily, it meant that instead Ivey only receiving the
$2100 for the CDL program he later received an approximate of $14,000 in
unemploment compensation.
20. Ivey forwarded the complaint to the FL Dept, of Education after he was
told by Sandra Lambert, the FL DMV Director, in a response to the
complaint that the matter was under the jurisdiction of the FL. Dept, of
Education. Lambert, also, forwarded the compliant to the FL. Dept, of
5

Education. Lambert before employment with the FL DMV had worked for
the FL Dept, of Education which was made known to Ivey in her responses to
interrogatories of related case IVEY v. ROBERT KYNOCH, FL DEPT. OF
MOTOR VEHICLES, Civil Action No. 2010-CA-010751-0, FL Ninth Circuit
Court. Similarly, in Interrogatories and Depositions for the same case, Oaks
and Price state that they are under the jurisdiction of the FL Dept, of
Education.
21.

The FL Dept, of Education has contended that they do not have

jurisdiction over MFT, thus, no jurisdiction over the complaint. There has
been no justification as to what, if any, FL state agency that does have state
level jurisdiction over MFT for the complaint resolution past the local level.
Second Circuit has agreed that FL Dept, of Education does not have
jurisdiction over MFT.
B. Facts
1. The retraining and re-employment program funded by the federal
government had the stipulation that the facility providing the training had to
be approved and certified by the US Dept, of Education, therefore, all state
Dept, of Education had to comply to this criteria.
Al.(Amended 1) The teachers have to be state certified, APP. I, P. 78,
L-15 -18 and APP. I, P. 81, L-18 -23, thus, under the jurisdiction of the
FL State Dept, of Education, the respondents. Because Stewart/FL DOE
failed to conduct the required and proper investigation, as per the regulations
6

of accepting and processing federal funds, there is no record to cite the federal
work program in question. However, as with Rec. P. 52, Item 1, the
Corcoran/FL DOE refer to a 'common knowledge' of processing that Ivey
should know. The same would apply here to Corcoran/FL DOE, particulalry,
as an agency that relies and recieves federal funds, yearly, should be aware,
as common knowledge, that they would have to comply with all federal
regulations, laws, and statutes for distribution and use of the federal funds,
Rec. 98, Par. 1.
2. From #1, above the FI. Dept, of Education ceritifies the approval of Mid
Florida, MFT, as a consequence.
A2. The intent of the US Congress for the work program was for the
participant to be in alignment with the requirements and certifications as
any other student using the funds at an education facility that receives
federal education. If Corcoran/FL DOE had conducted the required
investigation then there would besome record of the program in question and
listing the stipulations of the US Congress. Ivey did raise this issue in 2nd
Circuit, Rec. P. 18, Para. 18; Rec. P. 19, Item (b) & (c); Rec. P. 20, Para. 19 &
20; and Rec. P. 78, Para. 1 to Rec. P. 79.
3. AWI could not administer any funds unless it met the federal
stipulations, the intented federal to state to education facility chain of
approval and certification as to proper distribution of the federal funds as per
7

the US Congressional intent of the US DOE rules and regulations.
A3. Ivey, as all applicants, had to complete the FAFSA form, as for any
college, in order to receive the work training funds for the particular program
chosen. MFT uses this same form for all students who seek federal education
aid. Anyone in any education facility in the country has to complete and file
this form. Just as with Rec. P 52, Item 1, with Corcoran/FL DOE citing
'common knowledge' this condition is 'common knowledge' that Corcoran/FL
DOE should know as well as 2nd Circuit. In this area there is the criteria for
a plaintiff in surviving a dismissal based on the fact that if a law clerk, not
specifically a judge, can see that there is a more than reasonable question as
to the validity of the respondents' claim for a dismmissal, then the dismissal
should be denied. Those who become law clerks would be required to
complete the FAFSA form for any federal aid so this would be an
understandable use of'common knowledge' criteria. AWI gave Ivey, as with
all participants, an approved list of training programs at the approved
educational facilities that maintianed the proper chain of federal
distribution.
4. The FL Dept, of Education accepted the funds for the listed approved
programs for all education facilities of the state of Florida for any person
particpating in any such aproved program.
A4. It is 'common knowledge' of the conditions of acceptence and use of
federal funds; an education system that relies on federal funds should clearly
8

understand such a condition. Just with Fact 1, Al, 2, & A2, above, there was
no proper and required investigation into Ivey's claims. This is beyond Ivey's
due diligence. It demonstrates the efforts of the appellees to avoid
accountability. Rec. P. 53, Item 3, cites "Stewart, in her official capacity as
the Commissioner of Education, is not a proper party.....(then states)
Stewart is not the Commissioner of Education." This is a contradiction where
the actual role was not resolved in 2nd Circuit, thus, it represents a smoke
screen.
5. For all contacts in handling the complaint the same concensus has been
stated by all giving testimony or evidence, in that they are under the
jurisdiction of the FL Dept, of Education.
A5. Oaks, Price and Lambert have stated that they are under the FL Dept, of
Education and the claims are under Corcoran/FL DOE, Rec. Rec. P. 11, Item
6; Rec. P. 79, Para. 2 to Rec. P. 80; APP. H, P. 74 and APP. K; APP. L, P. 78,
L. 15 - 18; APP. J, P. 81, L. 18 - 23; Rec. P. 11, Item 6; and Rec. P. 79,
Para. 2 - Rec. P. 80.
6. Oaks and Price failed to provide the required trailing schedule as given to
two Hispanic students. And provided no justifiable expanation to the point of
no response.
A6. Part of the original compliant, Rec. P. 9 - 19 and in failing to take
corrective action as fisted in Rec. P. 20 - 21 under 'Administrative Review.'

9

7. Oaks and Price gave two Hispanic males multiple times to pass CDL
testing, thus, complete and qualify for a CDL but to Ivey gave him a one
time only, pass or fail, test.
A7. As with Fact € and A6 there is no investigation file to reference or
documentation that should have been collected by the required processing of
Corcoran/FL DOE To note: there has been no denial from the respondents
that the events as reported are not true, only that they do not have
jurisdiction.
8. The FI Dept, of Education did not conduct any proper and sufficient
investigation into the compliant so that there is a significant record to
reference for any court action.
A8. This is the condition, as shown above, involving Corcoran/FL DOE with
not provideing a record from an investigation file. Ivey can not be held
accountable for this failure.
9. Failing to provide an investigation means that any resolve of accurately
applied statutes and other relative authorities are absence at any level of the
originating complaint ands subsequent civil action. This puts an undue
burden on Ivey and usurps proper and effective due process.
A9. The end result is a usurping of Corcoran/FL DOE's responsiblilty to
investigate any compliants of discrimination, mismanagement of funds and
fraud. (Fraud was not something know for the initial complaint or
processing; the later depositions of Oaks and Price for related case Ivey v.
10

Kynoch, 2010-CA-010751 (FL 9th Circuit), shows perjury not know until
after the 2nd Circuit decision to dismiss. With this there is the fact that
Corcoran/FL DOE did not cite any condition or 'waiver Right' that would
have been be stipulated in the formulation of the act/work education program
by the US Congress. This would be an intented criteria as a means for
Corcoran/FL DOE to use to break the chain of certification and responsibilty
of the distribution and use of the federal funds. This failure is similalry with
any condition that could have been cited of the US DOE as the first link in
the funds distribution and requirement regulation chain.
II. Statement of Issues
A. The 1964 Civil Rights Act, 42 U.S.C. 2000, Title VI & VII, states that
discrimination in the distribution of federal funds is prohibited. The
processing of any complaint is to be made in accordance to the responsibility
established by the code of any person or entity receiving such funds. The FL
DOE did not comply with the statute to protect and correct Ivey's Rights
under the statute.
B. The FL Dept, of Education stipulates that it does not have jurisdiction
over the complaint because it does not have jurisdiction over MFT, even
though it accepted the federal funds. The connecting factor is the required
certification any education facility needed in order to receive the federal
funds as being the chain of certification from the federal approval to the state

11

then local.
C. Through the complaint processing and then into the courts, it
demostrated that MFT has no state level oversight for any complaint of
noncompliance to the 1964 Civil Rights Act after accepting the funds. There
where no direction or notice as to if Ivey had to go to the US DOE or
otherwise for relief. Corcoran/FL DOE has not accepted the jurisdictional
responsibility, thereby, resulting in an unconstitutioanl circumstances of
avoiding accountability.
D. The FL Dept, of Education has used, and Second Circuit has allowed, a
state condition set forth by the Florida Const. Art.IX 4(b) and cited Statutes,
APP. L, PP. 86 - 87, to void the connectivity of the FL Dept, of Education to
MFT and, thus, the regulations of federal funds distribution, and usurp the
intent ofthe US Congressional work program; the US DOE; and Ivey's Rights
under the 1964 Civil Rights Act from discrimination while using federal
funds. This questions how a state constitution and related statutes can
overide federal regulations and statutes to usurp proper due process ?
III. Argument
22. The federal Congress established the re-employment training program
that funded the CDL trainiung at MFT. Even though there are other CDL
training facilities in Florida those were not at credited educational facilities.
The criteria of the funds were that the education facility providing the
training met the US Dept, of Education standards because each applicant
12

had to complete the FAFSA form, the federal education requirement for any
student aid. In turn, the education facility had to be credited as per the US
DOE for regulations to the FL DOE state authority. For the present case,
Corcoran/FL DOE argued that they do not have jurisdictional authority over
MFT, therefore, the claim, Rec. P. 53, Para. 5 to Rec. P. 55, Para. 1. This
generates a conflict of deficiency because how can the US DOE have
authority over MFT in any claims of misuse and/or discrimination of federal
funds if Corcoran/FL DOE cites the FL. Const. Art. and statutes that break
the chain of authority of the distribution of funds and support of fairness to
all participants within the Florida educational system using federal funds?
This results in no state level oversight or if so, no requirement to inform Ivey
of such path for relief.
23. With Brown v.the Board of Education, (1954, US S.Ct.) that is cited
frequently in cases such as this one but, also, continuing through the 1980's
and 1990's with cases of military schools for racial inequality and female
recuits being excluded, there has been the progression in Court decisions to a
void discrimination and unaccountability. The unifying decisions in these
cases before the federal authorities is that if you take the federal funds then
you have to not only provide equal access and application, but are resposible
for the oversight into any wrongdoing. What Corcoran/FL DOE are saying is
that they can usurp this long supported and hard fought progression with FL.
13

Constitution Article IX 4(b) and FL. Ststutes 1001.42 (4)(h), 1001.10(4),
1001.30, 1001.33, 1001.42(5)(a), and 1012.22(1) to void their responsibility
and allow discrimination while taking the federal funds for the other Florida
education facilities that received the federal work training funds during the
'Great Recession'. Where ever there are violations in the distribution,
application, and maintiaing of federal funds then there is the resposibility of
those receiving the funds in it's entirety to work the followup, and make the
appropriate and sufficient distribution abd investigations as per the federal
authorities associated with such funds. There can not be the overlooking of
wrongdoing in one area of the federally fundedv programs while supporting
other educational areas with same federal funds. If Corcoran/FL DOE were
correct and Florida Second Circuit is sufficient in upholding, then
Corcoran/FL DOE needed to show that for whatever role they operate in the
Florida education system that they have not nor do they take ANY federal
funds, even other than those alloted for the work training program herein.
This would apply to all fedral funds taken by Florida. This was not
demonstrated in 2nd Cir. by Corcoran/FL DOE, thus, not resolved as to the
Right to avoid federal conditions. They only way these listed Florida Const.
Art. and Statutes would hold is if the education facility only took Florida
state funds and not 'ANY' federal.
24. For federal review of the complaint and circumstances it would be
within the federal authorities' Right to 'claw back' all the federal funds for
14

the re-employment training program from the state of Florida until
Corcoran/FL DOE resolved the unconstitutional issues and the present
complaint. It would not be in the public interest or cost effective for the
federal authorities to allow Corcoran/FL DOE, to keep the funds while the
federal governement spent more money to investigate the state system
insteaad of through the FL DOE. Because the present system in Florida is
that any such action has to be done for each separate county wherein any of
the federal work program funds were distributed and utilized. This is not an
absurd action, because from 2015 to 2016 the federal government found that
many of the phone companies, AT&T, Verizon, Virgin Moblie, etc., that
issued phones through the federaly funded lifeline phone program, initiated
by the Bush Administration, had inaccurately processed the applications for
the phones. After finding the mistake , the federal government did not sort
through the application errors to resolve the issues as per each individual,
they merely 'clawed back' multiple millions of dollars of the federal funds
given improperly and fraudulently to the phone companies. This along with
the above violates the 1964 Civil Rights Act, for ptotection of Ivey's Rights
and usurp proper due process, a Fith Amendment Right. This is because
taking federal funds comes with all the rules, regulations, and statutes of the
federal government that have to be maintianed, no state constitutional
article or statutes, thereof, can usurp such a federal connections and
15

protections.
25. To note for the above, the citing of the extact title of the work training
program is unknown to Ivey due to the fact that FL AWI and Corcoran/FL
DOE have failed to provide such information as requested by Ivey, even in
discovery request. One such repeated request was noted in a letter APP. H,
P. 72. Similarly, Ivey has attempted to have forwarded to him the
distribution records of the federal funds from the US Treasury to Florida and
thru the state educational facilities. However, no such request have been
fulfilled. This is due in part to Corcoran/FL DOE not conducting a proper
investigation. Thus, vey has done his due diligemce for obtaining the
information. The failure to provide such requested documentation
demostrates Corcoran/FL DOE’s efforts to de-rail proper due process.
26. (Intentionally left blank).
IV. Time Limit of Filing Response Brief
27.

Ivey makes 'Note' of the 'Motion for Sanctions' filed Jan. 10, 2019

because the appellees failed to properly forward to Ivey a copy of the
'Appelee'sAnswer Brief through the established postal mailing. As such Ivey
request due consideration be given to santioons should this 'Appellant
Response Brief be considered untimely filed after waiting for the 'Appellees'
Answer Brief to arrive via postal mailing.
V. Petitioner's Additions to Respondents' Preliminary Statement
28.

To note: Appellant Initial Brief is cited as 'AIB will include a
16

paragraph number with the page number. 'AAB' will be used for
Appellees'Answer Brief. 'Para.' with a number will refer to what paragraph
number on what page.
VI. Errors of Appellees' Answer Brief, AAB
A. Under Statement of the Case and Facts
29.

Corcoran/FDOE is fading in AAB, APP. L, PP. 89 - 90 to recognize that

the complaint, also, focuses on the federal issues involved such as the federal
work program funds and the residual federal regulations and responsibility of
Corcoran/FDOE in use of those funds. This produces a conflict between state
to federal constitution, statutes and application of the law to the complaint
that were not properly or fully ajudicated in Florida Second Circuit because it
raises the question as to whether the FL. Const. Art. and FL. Statutes cited
give full protection and proper due process as the Civil Rights Act of 1964,
Title VII, 42 U.S.C. 2000, and the Fifth Amendment to cited in Ivey's claims
and argument.
30.

In AAB, APP. L, P. 90, Para. 2, incorrectly references the FL DMV CDL

fees. The fees as part of the work training program were charged to Ivey, as
well as all other CDL students as a FL DMV CDL fee collected by Mid
Florida Tech, MFT, but MFT did not forward such funds to the FL DMV. The
FL DMV Director, Lambert, confirmed this fact. This reprsents fraud of the
federal funds. This is a reason for failing to properly investigate any
17

complaint ssues and to retaliate against Ivey. Ivey requested in different
ways, including via FL State Statutes for public information request for the
details and identification of the work training program and the distribution
to Florida of the federal funds in question. Corcoran/FL DOE failed to
comply. Just as with the complaint Corcoran/FL DOE failed to take proper
action leading to usurping proper due process. With AAB, APP/1, P. 89,
Para. 2, Corcoran/FL DOE did was to redirect the course of the complaint and
judicial processing by being misleading and irresponsible to the claims and
duty in handling federal education funds as the FDOE but to cite MFT solely.
31. AAB, App. L P. 90, Para, 1 & 3, cites the past litigation of a failure of
Ivey to state a cause of action. This is inaccurate and misleading because
Corcoran/FL DOE are required to conduct a sufficient and proper
investigation into any and all complaints involving the violation of federal
education, thus, there is no record to which the court could refer for the basis
of making proper decisions. As such Ivey can not be held accountable for any
failure of a 'Definite Statement' of the claims. An investigative record would
demonstrate the sorting of what regulations and statutes are incvolved that
would apply.
32. AAB, APP. L, P. 90, Para. 2, referenceing retaliation it should be noted
that failing to conduct a proper investigation is retaliation and
discouragment for reporting violations as per the Civil Rights Act, 42 U.S.C.
2000.
18

B. Under Summary of Argument
33. Corcoran/FL DOE's central common theme of this 'Summary' in all they
have stated is that they do not have jurisdiction over Ivey's claims. As such,
for residual issues they state the claims are vague and undefined as per FL
R.C.P. and the Florida State Constituion separating them from Mid Florida
Tech, OCPS, thereby resulting in a faliure to state a cause of action.
However, Corcoran/FL DOE have failed to argue proper jurisdiction or to
resolve their duty and obligation as a state agency in the use of the federal
funds as per regulations and laws that determine and prescribe a course of
action required of Corcoran/FL DOE in distriuting and processing federal
education funds for the Florida state education system. This generates the
constitutional conflict. A question here is, was it the intent of the US
Congress to allow Corcoran/FL DOE to usurp such obligations when they
inacted the federal work training program to be ditributed thru FL AWI
under the requirements of US Department of Education then to Florida's
education system for education work training programs?
C. Under Argument
34.

With AAB, APP. LP. 92, Para. 1, Line 1, this is too general of a

statement to be universally applied. For example, even thuough this is a
state court, under the Federal R.C.P. the stating of claim in a civil action only
need to be a brief statement of the violations and claims. They need not be

19

fully developed in order to survive a 'Motion for Dismissal' of the respondents
that is for the discovery process, if needed. This would not be far removed for
Florida R.C.P.as cited by Corcoran/FL DOE on AAB,APP/ L, P. 94, Para. 1,
with FLa. R. Civ. P. 1.110(b). The last lines of this paragraph refer to
inconsistancies of Ivey's compliant, but this can be attributed to the failure of
Corcoran/FL DOE to properly conduct the required investigation.
Corcoran/FDOE has failed to include the precursers to the filing of Ivey's
complaint and how that affects the complaint for survival of dismissal as
cited. Ivey has asserted this situation. Any agency taking federal funds
would know of the requirements of an investigation. Additionally, such
requirements state that in the complaint that the plaintiff is to be informed
of all paths of relief from the initial fifing of the complaint to which
administrative review, to judicial dsitrict, and to appeals processing as per
federal rules, regulations, and review for accepting federal funds. Ivey was
not informed as such.
35.

For AAB, APP. L, P. 92, Para. 2 refers to the testing of a figitimate

claim. Ivey's central claim is of discrimination which can be proven simply
because two Hispanic males, Gilbert and Luis told Ivey and the other
students of being given a second attempt to pass testing while Ivey was not
given the same chance. Oaks and Price in the office of MFT Director never
denied giving the second attempt to Gilbert and Luis but not to Ivey. This
was reported along with the fraud of the CDL fees; the fact that
20

Oaks/Price/MFT attempted to defraud Ivey and the work training program of
the total tuition amount; and failed to provide all required training to Ivey.
The perjury of Oaks and Price in these cliams is, also, demonstrated by the
US DOT and FL DOT equired log books of 'ALL' CDL drivers such that their
listing of events would have to match Ivey's log book, but they do not. If the
respondents had conducted some type of investigation they would have
found these, issues and more of the circumstances would be available for court
review. Use of this evidence was usurped by the unconstitutional issues of
the respondents' 'Motion for Dismissal', App. E. P. 57. Coreoran/FL DOE did
not even comply with the Florida regulation for public information request,
(as explianed above Para. # 30), which is a state misdomeaner. The cases
cited here, APP/ L, P. 92, are moot when reviewing the circumstances they
manipulated which caused harm to Ivey's claims and court review.
36.

With 'new matters', AAB, APP. L, P. 93, Para. 1, Corcoran/FL DOE

is defining the claims and procedure too narrowly and limiting. They are
sayimg all applications of any R.C.P., case, or law is to be done in the most
strict and specific interpretation such that it specifically supports their
argument singularly. For the preservation of Rights, Constitutional conflicts,
and public interest such cited authorities should be, as they have been, used
with reserve and caution opposite of narrow explicit interpretation.
Otherwise what results is that FL. Const. Art. IX 4(b) and FI. Statutes
21

1001.42 (4)(h), 1001.30, 1001.33, 1001.42(5)(a), and 1012.22(1) take priority
over the fedral Constitutional protections and Rigths thereof. Basically,
Corcoran/FL DOE are saying all rules are applied to Ivey in the strictest
manner and for the courts to do the same with their pleadings but not for
them. This can been seen by Para. 27 above in which Corcoran/FL DOE
failed to serve Ivey as prescribed; all this is a form of cheating. Corcoran/FL
DOE do not want rules applied in such a way to the respondents. The
situation with therespondents is that they do not care what it cost anyone,
Ivey, the education system, the Courts, the public, as long as it does not cost
the them anything. Was this the intent of the Fla. Const. Art IX (4)(b)
provision and the FL. Statutes cited above, from APP. L, PP. 96 - 97 of AAB,
in such a way to avoid accountbility and usurp federal authorities?
37.

The section from AAB, APP. L P. 83, Para. 2 to P. 97, Para. 2, is moot

because Ivey's cliams state relief under the Federal Civil Rights Act which
cures the issues in these passages. To the extented Florida statutes are
involved it would be Fla. Statute 760 for state discrimination, it can not be
overlooked. Ivey cites the US Civil Rights Act because of federal funds for
the federal work training program and the supporting regulations. Nearly all
the remaining argument is distorted and misleading. Ivey stated that he was
being discouraged from pursuing correction and relief for the extortion and
fraud of the federal funds which is a violation in themselves This is an
element that demostrates discrimination towards Ivey. Just as with the
22

discrimination, the question is what is at the state level that coincicides
with the US Civil Rights Act that supports Ivey's claims as processing and
protections equally? Yet another area which should have been resolved
under investigation prior to Ivey having to file a civil action. Corcoran/FL
DOE never replied to any notice of the claims either from the forwarding of
the compliant to Corcoran/FL DOE by the FL DMV Director, Lambert, or
directly from Ivey. Since the funds were to be managed at the state level the
state level has to make the review and corrections as per the US
Congressional intent for the US DOE regulations; he federal chain of
accountability. Such condition would be asked of Ivey if he would have to go
to federal civil action for relief, otherwise, the federal court would dismiss for
failure to seek any administrative or state relief. All of these respondents'
paragraphs point to the failure to conduct a proper investigation at the state
level prior to going to state judicial review, or otherwise. At the federal level
the court would not grant a dismissal becuase it is the federal established
stipulation that an investigation has to be made. Mnay cases point to this
condition which Corcoran/FL DOE should well know. Corcoran/FL DOE
dumped onto the judicial syestem the undue burden of extensive discovery,
thereby causing harm to Ivey. Fron this can be seeen that FLorida
authorities cited do not protect Ivey's Rights and proper due process as the
federal authorities which Florida Second Circuit Court did not recognize with
23

gratning dismissal undewr the Florida authorities cited. If the federal court
was proper jurisdiction then respondents nor FL. Secong Circuit gave notice
of such. Once again such 'Notice' had to be given Ivey as per federal
authorities.
38. From AAB, APP. L P. 95, last Para, to P. 97, Para. 1, cites all the
Florida Statutes as listed in the respondents' 'Table of Citations', AAB,
APP. L, PP. 86 - 87, which along with FL. Const.IX 4(b), cover Corcoran/
FL DOE's reasons for not being responsible for the claims. However, these
are all Florda state authorities do not resolve the connection of the
regulations, laws, and statutes of the federal funds that come with
acceptance and use. This generates a cause of action for Ivey.
39.

With 1001.30 FL Stat. (2018), AAB, APP. L, P. 96, middle insertion, in

stating that "any desirable and practicable opportunities authorized by law
beyond those required by the state, (in this case the cited FL Const and FL
Statutes) are delegated to the school officials of the respective districts".
What Corcoran/FL DOE are saying is that these 'very' Fla. provisions and
statutes can, also, project authority of the FL schools officials in their
respective school districts todetermine federal regulations, laws, and statutes
involving the acceptence, use, and complaint processing becuase in this case
those are beyond the FL Const. Provision and Statutues. This represents a
'default rule' so as to generate no state level educational accountability. This
contradicts the intent of the US Congress in listing the requirements of the
24

work training program for an education system acceptinmg federal funds as
per the US DOE. This is unconstitutional when using federal to state
authorities to manage federal education funds and discrimination complaints
therein. (Though not Ivey's argument for the present case, it generates an
internal conflict within the FL DOE if it were only the consideration and
review of the acceptence of only state education funds when compared to a
private education facility that needed to be accredited by the FL DOE under
the intent of the FL Congress, becuase the same mechanics exist.)
40.

What is at the core of this circumstance and part of Corcoran/FL DOE's

attempt to usurp accontability is the practice of 'mingling.' The mechanism
of 'mingling' is the attempt to intertwine many different ideas or facts of
reasoning in such a way that it never resolves the central conflicts but
generates a view of the circumstances most favorable to the author. The last
paragraph of AAB, APP. L, P. 97 does as such author intented. For 'new
matters' suggested in AAB, APP. L, P. 93, Para. 1, Corcoran/FL DOE is doing
the same to distort the argument away from what was part of the issues in
FL Second Circuit.
VII. Appellant Counter Argument to AAB
41.

For Ivey should Corcoran/FL DOE attempt to accuse him of'mingling' it

would not fit squarely onto what Ivey is presenting. Ivey's argument is
structured on the connection of the federal funds as the intent of the US

25

Congress for the work training education program and as such for the duty of
Stewart/FDOE to process with the proper application of the associated
federal authorities. This is opposed to Corcoran/FL DOE's argument in that
it follows from, no jurisdiction over the claim, to no proper investigation, to
no sufficient and proper resolve of the applicable regulations, laws, and
statutes for an administrative desicion of the claims to avoid any vague or
unclear claims, thus, to state no cause of action as justification of FL Second
Circuit's dismissal. However, there are conflicts that would need to be
resolved for proper alignment of resulting proper decision. FL state's
structure for it's education system can not usurp federal structure for the
work training edcuation program when using federal funds. Citing the FI.
Const, provision and the FL. Statutes, AAB, APP. L, PP. 96 - 97, can not
separate Corcoran/FL DOE from the federal funds regulations, laws, and
statutues that establish the distribution, management, and protection of the
federal authorities.Corcoran/FL DOE benefited from the federal funds in
question but do not want the responsibility that comes with those funds.
42.

From 1001.10(4) Fla. Stat.(2018), AAB, APP L, P. 97, Para. 2, Corcoran/

FL DOE states their role for the state as " ... authorized to provide .... to
school districts ... the development of policies, procedures of standard and
training.... for instructional personnel and school administrators..... "
This means they are overseeing for the state education system the practices
of the schools, which means they are overseeing the distribution, use,
26

practice, etc. of all processing of federal funds for the school systems
inclusively Corcoran/FL DOE have never cited that they only controled that
which were strictly state fund education programs in the FL school system
and not that of federally funded areas of the education system in Florida.
How are they responsible to the state but not the federal authorities along
these federal connections. They are interacting with federal funds as per the
state statutes not federal statutes and constitional amendments. With this
FL Statute, as well as 1001.01 - 0.11 and .023 FL Stat. (2018), AAB, APP. L,
P. 97, Para. 2, correct application of these statutes and FL Const. Art would
be to FL schools that did not take 'ANY' federal funds, only strictly state
funded. Thus, when taking federal funds these cited state authorities are
unconstitutional and serve to deny the guaranty of protection for releif of US
Civil ZRight Codes and due process.l001.10(4) FL Stat. (2018) would
translate to Corcoran/FL DOE having oversight for the use of the federal
funds and any wrongdoing involvng such funds. These statutes as well as the
cited FL Const. Art. IX 4(b) argued in AAB and above are against Brown v.
Board of Education, the Civil Rights Act, US R.C.P., and the federal
regulations when using the federal monies. The collective actions, in turn,
demonstrates a failure of proper due process.
43.

These statutes were apparently formulated to avoid accountability and

liability of Corcoran/FL DOE for damage control and cost effectiveness, thus,
27

restrictimg law suits to within the counties and not trangress to the state
level. This is a practice of progressively taking in more, and more, funds but
simultaneously gradually doing less and less work in mainitining proper
federal standardsin handling of federal education funds. Corcoran/FL DOE
with these statutes is shifting the administrative review of the education
system onto either the local education level only and/or the judicial system
for a plaintiff seeking relief. This is of public interest because it
demonstrates a problem in the ineffectiveness of what taxpayers are charged
due to a mechanism by which a state system moves from effective work
practices to less or no accountibility for wrongdoingas thereby being guided
by sloth. Abstinence is a good tool in an education system for teaching the
avoidance of drugs, STD’s and teen pregnacies but not for the purpose of
promoting sloth for use by a governemental agency to avoid proper
accountability and liability.
VIII. Conclusion
44.

In general, a petioner need only show one issue that was unresolved at

the lower level to reverse the lower court ruling. Ivey has demonstrated
many inconsistences and significant conflicts that justifies the reversal of FL
Second Circuit.
REASONS FOR GRANTING THE PETITION
IX. Fundamental Cost
45. From Para. 18 above, can be seen that in extorting money from Ivey
28

there was the same from the federal government. Once MFT and
Corcoran/FL DOE were made aware of such there was no action taken to
correct the problem. For any federal authority to take action would mean
going from county to county becuase of the absence of Corcoran/FL DOE
being the central 'go to' agency. The federal authorities would not proceed
that way. The entire funds sent to Florida would be 'clawed back' The
resulting effect to Ivey in seeking relief was an undue burden that was later
passed onto the judicial system. This contributes a reason for granting the
Writ; the federal government is being ripped off and the US Civil Rights
Act/Codes,Title VI & VII, 42 U.S.C. 2000 are being usurped. Significantly,
the resulting dismissal was for the cited FL Const. Art. and FL Statutes
instead of the federal authorities Ivey cited. This would have been
the same even if Ivey were at the hearing.
X. Processing Irregularities
46. With APP. H, P. 72, a letter from Ivey to the court and respondents
reports that Corcoran/FL DOE were trying to arrange a hearing without
forwarding to Ivey the 'Motion' to be heard, later found to be APP. I, PP. 75 79, 'Motion to Dismiss.' When the 'Dismissal' hearing was scheduled Ivey
was excluded from the hearing because the was no contact to Ivey, via
telephonic appearence, for the hearing. On appeal to FL First District Court
of Appeal, a similar situation happend in not forwarding to Ivey the required
29

brief at the required deadline.Ivey requested 'Sanctions', but such was
denied. Whether at each incidence or combined there has been a failure of
proper due process; another contributing factor for grating the Writ as it
demonstrates a negative pattern of behavior so as to usurp proper due
process. In part, this genrated mostly after Ivey had stated the option for the
federal authorities to 'claw back' the work training funds form the state of
Florida because the federal authoritied would not go county to county to 'claw
back' the funds. The same processing errors ocurred with associated case
'Ivey v. Robert Kynoch, FL DMV', so much so that it caused a failure for that
case to be properly appealed.
XI. Conflict in F.R.C.P. v. FL R.C.P.
47. When comparing the F.R.C.P. to the FL R.C.P. it is understood to Ivey
that the conflict between the processing under each is a jurisdictional resolve.
However, presently it should be taken into consideration because
Corcoran/FL DOE argued, as referenced from Para. 37, above, that Ivey's
claims are vague, thus the case should be dismissed. Under the F.R.C.P.
unlike the FL R.C.P. states that a plaintiff need only file a complaint as a
general explanation of the claims. Additionally, under the F.R.C.P. because
CorCoran/FL DOE did not conduct a proper and sufficient investigation, as
per the US Civil Rights code in order for the court to have some
administrative record to reference, there would not be a dismissal granted.
Ivey was not given any 'Notice' as to what administrative remedy was
30

available. The notable reasoning for the Writ is that just as the above, this
comparision demonstrates that a series of problem in seeking relief
were in themselves harmful if nothing more than discouraging a plaintiff
from seeking relief. The failure of FL R.C.P. can be seen as insufficient
because they themselves along with the FL Const. Art. and FL Statutes cited
by the respondents failed to support the proper and sufficient judicial
processing of US Civil Rights claims. Should the federal judicial sector be the
only judicial sector to uphold the US Civil Rights Act/Codes for relief and
proper due process of federal Rights violation in the FL DOE?
XII. Legal Defect
48. The different counties in Florida, as with MFT in Orange County, are the
different school districts that have their own legal represntative(s).
Corcoran/ FL DOE is similar with their own legal representative(s). Just as
with each state, Florida has an Attorney General, FL AG, that represents the
various state agencies. In asoicated case, 'Ivey v. Robert Kynoch, FL DMV',
the FL AG was counsel for the case. Ivey suggested that the FL AG
represent both that case and the present case, for cost effectiveness. It is
obvious that this did not happen. Why should there be the numerous county
attorneys and support staff, and Corcoran/FL DOE has the same, when the
FL AG is established for such purpose for both? The separation resulting
from the FL Const. Art. and FL Statutes passes excessive legal cost to the
31

students and the taxpayers. When considering the federal funds involved
pay for such legal upkeep it is unfair to the students and taxpayers in all
states. This would, also, apply to 'ALL' federal funds sent to Florida. This is
a contemporary problem that is reoccuring as with the ACA, Affordable Care
Act, and circumstances of sanctuary cities for immigration issues wherein the
fair and distribution of federal funds are in disputes. Granting the Writ
would serve to offer resolve to this problem so that more federal funds
would go to the education of students, as intended, and not support a bloated
legal structure. The support of a more cost effective judicial processing would
be gained, as well. Florida spends to much money and efforts to protect a
fractured education system at the expensive of properly educating students.
This underminds and devalues the importance of obtaining an education
opposite of what was at the core of 'Brown v. Board of Education.'
XIII. Unconstitutional- Federal v. State Conflicts
(Note: The "History of the Supreme Court" is cited Schwartz with page #.)
A. Conflict Between FL DOE and FL DMV
49. In comparison of the present case with 'Ivey v. Robert Kynoch, FL DMV'
there exist a conflict in the status of the similarity in claims to each case.
This generated a question as to the proper jurisdiction for the claims. Oaks
and Price being both instructors for MFT and FL DMV generated violations
with both entities. In 'Ivey v. Robert Kynoch, FL DMV' the claims were
consider a state issue needing the representation of the FL AG, but not so for
32

the same claims with MFT. Therefeore, Ivey in citing the Civil Rights
Act/Codes of 1964-Title VI & VII, 42 U.S.C. 2000 for both cases was given
conflicting processing with neither giving proper alignment for the federal
Rights claims. Florida has saparated the FL DOE from being a state issues
for the FL AG and from the county school districts in the doctrine of
"separate but equal". With 'Brown', as discussed in Schwartz, P. 287, the S.
Ct. dealt with this in 'Plessy v. Ferguson'. Just as with 'Brown' in ruling that
the separate states and District of Columbia could not be the determining
authority for equal educational access the same holds for Florida stating that
the counties are "separate but equal" in having the FL DOE separate from
the counties and counties from each other. 'Brown' became the unfying
authority, the imbrication, for cohesion of intergreation.
50. With the present case there is no unifuing authority, no imbrication,
given that the US Civil Rights Codes were not utilized by FL Second Circuit.
then affirmed on appeal. If restricted to Florida authorities'jurisdiction for
Ivey's claims citing only FL Statute 706, (the FL Civil Rights Code), would
have received the same confict because Corcoran/FL DOE would cite a lack of
jurisdiction as per the FL Const. Art IX 4(b) and FL Statutes 1001.42 (4)(h);
1001.30; 1001.33; 1001.42(5)(a); & 1012.22(1), and the similar confict
between FL DOE and FL DMV. This demostrates a fundamental state
problem that does not support US Civil Rights or within the state. Florida
33

has separtated the FL DOE from the counties with counties being considered
'saparate but equal', thus, generating segregation within the education
system. There is no imbrication by the state level, then to the US Dept, of
Education by recognizing the juridiction of the US Civil Rights Codes or the
federal education funds that support the FL DOE even in any particular
education program as per the US Congress' intent. There is no central
Florida education authority to regulate the 'separate but equal' county
structure; another reason for gratning the Writ.
B. Residual Effects/Conflict with Established History of Federal Education
Funds
51. Once 'Brown' took effect other cases began to emerge to challenge
segregation, as 'separate but equal', Schwartz PP. 307 - 309, but 'Brown' was
extended to other areas of public access to be the equalizer. The imbrication
of this extension, not yet understood as such, was that all public facilities
received public funds, thus, as such fall under 'Brown'. Had 'Brown' been
centered on the 'Rights as per public funds' would the S. Ct. decision not have
been the same, but with a better understanding that would not have
surprised the Warren Court more than the intented desegregation in schools?
The present lower court ruling does not uphold the imbrication of the federal
education funds.
52. In the 1980's to 1990's there was the push of females to be accepted and
enter the all-male military schools such as VMI, Virginia Military Institute,
34

and the Citadel, South Carolina. These schools refused to consider female
applicants and then to admit them. Just as in 'Brown' there were complaints
and judicial processing. The states were absence to reluctant on settling the
issue. South Carolina offered a 'separate but equal' solutions, which was
ruled improper for resolve. VWI went to great efforts to tap into their
connections with the US Dept.of Defense for support in remaining an all­
male institute, but none was given nor any position on the issue. The issue
was resolved by citing that the US DOE stated such military schools could
remain all-male if they did not take federal education funds. Since these
schools could not operate as they had been without federal educations funds
the schools relinquished. Just as 'Brown' revealed the imbrication of public
funding rather than be strictly segregate, as was the cases for those cited in
Schwartz PP. 307 - 309, the federal funds were the imbrication for females to
receive equal and fair access to military schools. With a federal work
training program having the same requirements as that of any student
receiving federal funds, as any student in college, but neither Corcoran/FL
DOE nor the FL judicial system recognized the imbrication of such funds for
relief; a reasons for the Writ.
C. Mingling Results From the Absence of Imbrication
53. Though 'Brown' had done much of the needed work so much so that by
heading into 1963, Schwartz P. 308, Para. 2-4, the S. Ct. did not require oral
35

arguments in citing 'Brown' nor to give an explanation of what the Court was
doing or reasoning for the decision, but have the law clerk draft the opinion.
It seems unlikely that with such a universal imbrication that Ivey would
need to revisit 'Brown' to seek corrective relief over FL Const. Art IX 4(b) and
FL Statutes 1001.42 (4)(h); 1001.10(4); 1001.33; 1001.42(5)(a); & 1012.22(1).
The dating of the problem is not at issue of what is actually occuring which is
mingling v.imbrieation. The Warren Court chose the 'value system' approach
which resulted in the much broader, though broader, imbrication. The fact
that Corcoran/FL DOE cites FL Const. Art. IX 4(b) does not change the
course of 'Brown' because of 'Brown' in and of itself but what followed ten
years later. The US Civil Rights Act of 1964 covered the residual harm
inflicted on a plaintiff such as discouragement, intmidation and retaliation
practices, the mechanics of mingling, associated with seeking relief for Rights
and unconstitutional violations, even though one could cite 'Brown.'
54. Mingling and imbrication basically involve the same elements but they
are arranged differently. For example, the federal government is the
imbrication of the 50 states through overlapping the state boundries but with
mingling one or more states would be arranged or have some specific
jurisdiction that was outside the federal government but considered a US
state all the same. The practice of mingling is familiar to the judicial system
because it is part of records used by the US Treasury for investigations and
uncovering acts of money laudering, fraud, and tax evasion. The core focus in
36

such is to follow the money trail the same applies herein. With the present
case there are issues of extorting funds, fraud,and misdemeanors with no
central Florida state agency taking the required corrective actions. The US
Treasury, or any other federal oversight entity, would not go county by
county to find where the violations occured and to whom. Any federal
authority would deal with a central state agency or the funds would be
'clawed-back'. This follows similarly that FL DOE has a education system
that does not promote judicial efficiency whether in the state or to the federal
court. It places an improper burden on a plainitff from an overall system
that has moreeducation funds going to support bloated legal cost. This
results in an improper balance of due process. The present work training
funds would not be the only funds involved to have such problems but to all
federal education funds to FL DOE. Such conditions exist because these
circumstances are the results of segregation mingling'. The cited Florida
authorities by Corcoran/FL DOE have separated the function of a central
state education entity from overseeing the separate school districts. Ivey, nor
any student, should have to chased three state departments, the FL DMV, FL
DOE & FL AWT, plus deal with the FL AG, to have these issues resolved and
the proper correction actions taken such that releif is given. The arguments
to sustain Florida's present education system would be the same as with
'Plessy'. An negative example is that if one student prevailed in that local
37

county court juridiction it would not mean all other counties are made aware
or, if aware, choose to not apply the nonjuridictional court’s decision. With a
central Dept, of Education oversight of all counties such a decison would be
give as 'Notice' of the updated rule of law. As it stands now Corcoran/FL
DOE is putting the responsibility to notify all counties of any court decision
of Rights' updates on the judicial system. Fron such, as in 'Brown' with
arguments of 'Plessy', is raised the question of whether the FL counties
school districts are inferior and/or all FL county school districts inferior to
other county school districts in other states because of 'segregation mingling'
of the Florida authorities cited by Corcoran/FL DOE?
55. After 'Brown' the Integration, thus imbrication. When black students
began to integrate schools some schools closed rather than admit black
students, (Schwartz), and federal troops were called in to assure protection
and compliance with ’Brown'. The initial federal troops were from various
states but later only the local troops were assigned to their local home areas.
The mix of the initial troops upheld fair practices and protections, they were
not directly connected to the area, but the more local troops failed to provide
the same level of protection to black students. This meant that with the later
the black students were subject to discouragement, and harassment,
elements of bullying by a group of whites with the authority of a federal
guard, thus, intimidation. These actions meant the black students were
being retaliated against so they were not being treated as equal to white
38

students. They were de-valued. With 'Brown' these were not the issues,
therefore no Civil Rights to the better treatement for equalization. Some
other form of imbrication was needed, the US Civil Rights Act of 1964.
D. US Civil Rights Act/Codes v. FL. Const. Art. IX 4(b) and FL Statutes
56. For the present case Ivey was being intimidated and harrased because
Oaks and Price told him just after the first week of the CDL course that he
was not going to make it. No test had been done; no assessments done. Oaks
and Price wanted him to just quit and take the course again. When during
the course Ivey showed that their effort to derail Ivey were notgoing as
planned, they did not inform Ivey of grading conditions; failed to give Ivey
the required course training; and would not give Ivey the test for both MFT
and FL DMV. When Ivey proceeded to seek relief from the administration he
was met with discouragement basically treating Ivey with a stereotype that
CDL training and such resulting issues were those of only about 'truckers'.
The oversight was that it was typical low end 'trucker' mentality so Ivey got
what he should have known better to avoid or himself as much as the
stereotype. This was the attitude of MFT that gets support from citizens
attempting to do what is needed to overcome a nationwide problem of the
'Great Recession'. When Ivey stood his ground, stood up for his Rights, the
education employees retaliated. In the Warren Court the use of the 'value
system' approach to combat the 'inferior' issue with Brown' was utilized, the

39

same should hold for the present case so that Ivey's, and any Florida
students' Civil Rights as per the Civil Rights Codes are upheld to curb
negative actions. FL Statutes: 1001.42 (4)(h), 1001.33, 1001.42 (4)(h),
1001.42(5)(a), & 1012.22(1) do not override the Civil Rights Codes. These
codes, in turn, are atttached to any federal education funds taken and
untilized by Corcoran/FL DOE, not just those for the work training program.
It is unconstitutional for the cited FL Statutes and FL Const. Art. to give
non-jurisdiction protection to Corcoran/FL DOE. What has happened is that
Florida has formed a structure of 'layered mingling', not just 'segregation
mingling', in order to avoid responsibility and accountability while the
education system takes in the federal education funds. Thus, a reason for
granting the Writ because the Civil Rights Codes are not being recognized as
the proper 'modern authority'. Presently such contributes to a failure of
proper due process.
XJV. CONCLUSION and Request for Writ Processing
57. In the event the Writ is granted Ivey request that the Court appoint him
an attorney, this would be for preparation and if required, oral arguments.
The petiton for Writ of Certiorari should be granted.
Respectfully submitted,
Date

40

